<html>
<title> - H.R. 186: TO AMEND THE FEDERAL ELECTIONS CAMPAIGN ACT OF 1971 TO PERMIT CANDIDATES FOR ELECTION FOR FEDERAL OFFICE TO DESIGNATE AN INDIVIDUAL WHO WILL BE AUTHORIZED TO DISBURSE FUNDS OF THE AUTHORIZED CAMPAIGN COMMITTEES OF THE CANDIDATE IN THE EVENT OF THE DEATH OF THE CANDIDATE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






H.R. 186: TO AMEND THE FEDERAL ELECTIONS CAMPAIGN ACT OF 1971 TO PERMIT 
 CANDIDATES FOR ELECTION FOR FEDERAL OFFICE TO DESIGNATE AN INDIVIDUAL 
  WHO WILL BE AUTHORIZED TO DISBURSE FUNDS OF THE AUTHORIZED CAMPAIGN 
 COMMITTEES OF THE CANDIDATE IN THE EVENT OF THE DEATH OF THE CANDIDATE

=======================================================================


                                HEARING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                 HELD IN WASHINGTON, DC, JUNE 25, 2014

                               __________

      Printed for the use of the Committee on House Administration




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                       Available on the Internet:
                          http://www.fdsys.gov
                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

89-702                         WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









                   COMMITTEE ON HOUSE ADMINISTRATION

   CANDICE S. MILLER, Michigan, 
             Chairman

ROBERT A. BRADY, Pennsylvania        GREGG HARPER, Mississippi
  Ranking Minority Member            PHIL GINGREY, M.D., Georgia
ZOE LOFGREN, California              AARON SCHOCK, Illinois
JUAN VARGAS, California              TODD ROKITA, Indiana
                                     RICHARD B. NUGENT, Florida

                                 ------                                

                           Professional Staff

                      Sean Moran, Staff Director

                   Kyle Anderson, Minority Staff Director

 
H.R. 186: TO AMEND THE FEDERAL ELECTIONS CAMPAIGN ACT OF 1971 TO PERMIT 
 CANDIDATES FOR ELECTION FOR FEDERAL OFFICE TO DESIGNATE AN INDIVIDUAL 
  WHO WILL BE AUTHORIZED TO DISBURSE FUNDS OF THE AUTHORIZED CAMPAIGN 
 COMMITTEES OF THE CANDIDATE IN THE EVENT OF THE DEATH OF THE CANDIDATE

                              ----------                              


                        WEDNESDAY, JUNE 25, 2014

                          House of Representatives,
                         Committee on House Administration,
                                                     Washington, DC
    The committee met, pursuant to call, at 11:04 a.m., in room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
(chairman of the committee) presiding.
    Present: Representatives Miller, Harper, Brady, and Vargas.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Bob Sensenbrenner, Deputy General 
Counsel; Yael Barash, Legislative Clerk; Erin Sayago, 
Communications Director; Kyle Anderson, Minority Staff 
Director; Matt Pinkus, Minority Senior Policy Advisor; Matt 
DeFreitas, Minority Professional Staff; Khalil Abboud, Minority 
Deputy Counsel; Thomas Hicks, Minority Senior Counsel; Mike 
Harrison, Minority Chief Counsel; Greg Abbott, Minority 
Professional Staff; and Eddie Flaherty, Minority Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration's hearing regarding H.R. 186 that was introduced 
by the gentleman from North Carolina, Representative Walter 
Jones.
    The hearing record will remain open for 5 legislative days 
so that members may submit any materials that they wish to be 
included therein.
    And a quorum is present, so we can proceed.
    This hearing is for the committee to receive testimony on 
H.R. 186 from one of our colleagues in the U.S. House, the 
distinguished gentleman who represents North Carolina's Third 
Congressional District, Representative Walter Jones. And we are 
going to hear from Representative Jones on the necessity and 
the importance of this bill that he has introduced.
    And we certainly thank you for your attendance here today.
    Mr. Jones. Thank you.
    The Chairman. H.R. 186 is a bill to amend the Federal 
Elections Campaign Act of 1971 in regards to who may distribute 
campaign funds for a candidate's federal election campaign. 
Under current federal law, only the campaign treasurer is 
authorized to disburse campaign funds, and that includes 
disbursing these funds in the event that the candidate should 
even pass away.
    Should Representative Jones' bill become law, it would 
allow candidates running for federal office the opportunity to 
designate an additional individual, separate from the campaign 
treasurer, who would be authorized to distribute campaign funds 
in the event of the death of the candidate.
    Essentially, this bill would provide candidates more 
flexibility when they are forming out their campaign for 
Federal office and allow them the additional choice on who 
should have the responsibility over managing their campaign 
funds.
    When individuals donate to a candidate, they are also 
donating to specific beliefs and values. This bill that we are 
discussing today will ensure that should the candidate pass 
away, those same beliefs and values are carried forward.
    Of course, every candidate running for office hopes to hire 
a campaign treasurer who is not only capable, but someone who 
would know and respect our wishes should anything happen. Given 
today's cumbersome campaign regulatory environment, sometimes 
candidates must make a choice to hire an individual they might 
not know personally very well.
    H.R. 186 will provide a clear designation for those who 
should have responsibility over campaign funds should the 
unforeseen happen. And this bill will task the Federal Election 
Commission, who is already responsible for receiving and 
registering such information filed by candidates, to update 
their forms and regulations.
    This is an important bill. It is also a nonpartisan bill.
    The House has also passed previous versions of this bill in 
every Congress since the 110th Congress. Not knowing a 
candidate's wishes on how campaign funds may not be the most 
common problem, but it is certainly a problem that has 
precedence. And today we have an easy solution before us, again 
that has bipartisan support.
    Again, I want to thank the witness for being here today and 
would now like to recognize my ranking member, my colleague, 
Mr. Brady, for the purpose of an opening statement.
    Mr. Brady. Yes. I would first like to thank Chairman Miller 
for holding this hearing, and thank my good friend from North 
Carolina, Walter Jones, for his tireless work promoting this 
bill.
    Currently, the Federal Election Campaign Act offers no 
guidance on disbursing funds in the event of a candidate's 
death. H.R. 186 seeks to amend the Federal Election Campaign 
Act by allowing a candidate to designate an individual of his 
or her choosing to disburse campaign funds in the event of the 
candidate's death and to provide specific instruction on how it 
should be done.
    Similar bills were passed in this House in the last three 
Congresses, and the Federal Election Commission stands ready to 
implement the bill should it become law. I have been a longtime 
supporter of this bill, and it is my hope that this commonsense 
proposal will pass into law.
    You know, as the chairman said, when we first become 
Members of Congress, it is conventional wisdom that we would 
get a treasurer that was probably--in my case it was, it is no 
longer now, but it was--that we would get maybe an attorney--no 
disrespect to attorneys, but I guess a little disrespect to 
them--or an accountant that we think would be a credible name 
that makes us look more credible, especially running for 
election, at times running for reelection.
    And we have had many, many instances in the past where, 
quite recently, one organization did that for four or five 
House Members, and for them to wake up one morning to find out 
that their funds were almost gone. And the major issue is there 
is no way to recoup it. Persons that violated that trust were 
probably incarcerated, maybe fined, but they could never get 
their money back.
    So that happens when even candidates are alive. God forbid, 
God forbid, God forbid, three times, if a sitting Congressman 
should pass away and their money is entrusted to someone who 
they think would be looked upon as credible in the community 
where they run or in the establishment. But that person most of 
the time does not really know the wishes of a Congressperson. 
It would be up to them to do whatever they want, however they 
want, according to the guidelines of the law of how to disburse 
the funds.
    So it would only be logical, and it is a logical and 
commonsense bill, that we would have somebody that would be 
close to us, a family member, which a lot of us shy away from 
from time to time putting them as a treasurer because of the 
way it may look. But that person, the family member, would know 
best what the candidate, deceased Congressperson, would want to 
have done with his remaining funds, what charities they would 
like, what other candidates they may want to support, all 
according to law.
    So this is just a commonsense bill that kind of protects. 
And I thank Congressman Jones for your perseverance, your 
determination. And I feel your frustration from time to time 
because I know you have a personal story.
    And it just protects 435 here and another hundred over in 
the Senate side that we can rest assured that whatever money we 
do have at the time of our passing would be distributed the way 
we would want if we were here. And the only way to do that is 
to implement this bill.
    Again, it is a commonsense bill, it is the right thing to 
do. We hear too many horror stories out there. And we do work 
hard. And fundraising is a major pain in the neck for a lot of 
us, and we don't all like to do it, but we have to do it to be 
able to maintain who we are. And we do have the opportunity 
then to help other people and help other charities.
    So, again, it is just a commonsense bill. And I applaud the 
Congressman for again coming back up here. And hopefully we can 
get it done. And because it is such a good bill, when we send 
it over to the Senate, in their wisdom, they tack things onto 
it, you know, and that kind of weighs the bill down and then it 
doesn't happen.
    So I will do the best that I can, and I have had 
conversations with the Senate, to try to make it as clean as it 
leaves here, because we did not do that in the past. We let 
this bill go out clean. We didn't tack anything onto it. 
Hopefully, they won't do that. And I think that I am totally 
confident that we could be able to pass it here and pass it 
there. And, as we said, the Federal Election Commission is 
waiting for it to happen so they can implement it also.
    So, again, I thank the chairman for convening this hearing, 
and thank you for sticking with us again and trying to get this 
done. We passed it when I was the chairman. We passed it when I 
was the ranking member. I look forward to passing it again 
while I am the ranking member.
    So thank you, Madam Chairman.
    The Chairman. I thank the gentleman very much.
    Any other comments from members?
    With that, I would like to introduce our witness. 
Representative Walter Jones was first sworn in to the U.S. 
House of Representatives in 1995 after serving 10 years as an 
elected member of the North Carolina General Assembly. Since 
entering office, he has been a strong voice for fighting for 
effective, commonsense government that returns power and 
control back to the people. His dedication and commitment to 
providing tax relief for American families, retirement security 
for our Nation's seniors, a strong national defense, and a 
quality education for every child has earned him respect 
amongst his colleagues on both sides of the political aisle. He 
has been a leader in fighting the U.S. trade deficit and 
leveling the trade playing field for American workers as well.
    Currently serving his 10th term, he is also a member of the 
House Committee on Armed Services. And he has concentrated on 
safeguarding the wellbeing of our Nation's veterans and our men 
and women on active duty.
    We want to thank you for joining us today. We have received 
your written testimony. And the chair now recognizes our 
witness, Mr. Walter Jones.

  STATEMENT OF THE HON. WALTER B. JONES, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Jones. Madam Chairman, thank you and the ranking member 
for the opportunity to bring this bill forward. And thank you 
for your understanding of the bill. You and the ranking member 
made very excellent comments about the intent of the bill, the 
content of the bill, and the importance. I would just like in 
my brief time to share my story and why I would get involved in 
a bill like this.
    In 1992, my father, Congressman Walter Jones, Sr., died in 
office. He had announced he was not running for reelection, but 
he died in September of that year, before the November 
election. And he was under the old system. We have changed that 
system now. But he was under the old system where the proceeds 
in his campaign account could go as part of his estate.
    And his treasurer, a wonderful, fine gentleman, a lawyer, 
was an honorable man. But he said that, based on the law, I 
cannot release these funds. And he was following the law, and 
we all understood that. But it got just complicated.
    And as you and the ranking member have said, in the time of 
death for a sitting Member of Congress, or a candidate for a 
congressional office, there is not a worse time for the family 
than to try to figure out how you go ahead and recover from the 
loss of the loved one. And it just seemed to me, working with 
my staff--my legislative director is sitting behind me, Josh 
Bowlen--that we decided a few years ago to put this bill in. 
Obviously, as you both have said, this is noncontroversial. It 
is not partisan at all. I would call it a family relief 
consideration act when the Member should die in office.
    We were able to work through the situation involving my 
father. But with the campaigns today and the cost of running 
for office--not me, if you check my--go on Open Secrets you 
will see I have got about $100,000 in my account. So this is 
about my colleagues in the House. And as Mr. Brady said, 
hopefully we could get this through the Senate. And I know you 
feel that way, Madam Chairman.
    This is about thinking about pain and suffering and hurt 
should any of us die in office or if we were candidates who had 
not been elected and we should be killed in a car accident or a 
plane crash or have a natural death. This is just to bring some 
peace and comfort to the family by allowing the candidate to 
designate, working with the Federal Election Commission, whom 
he or she would like to disburse those funds, what charities, 
what churches, what campaign accounts or party accounts. And it 
is really, as you have explained and my little explanation, it 
is that simple.
    The Chairman. Thank the gentleman very much.
    [The statement of Mr. Jones follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    The Chairman. And you and I and Mr. Brady have talked about 
this on the House floor as well on a number of different times. 
I really have to tell the truth, and thinking about your bill, 
I hadn't really thought it all the way through, right? You 
think you are never going to die, right? You are thinking, all 
right, just raising money and whatever you are doing. And what 
you would think if you did die, what kinds of charities that 
you normally support that you would like to see get X amount of 
the dollars or the various candidates, et cetera. And yet, as 
you say, under the current law, the treasurers that we select, 
you know, you could have a Republican treasurer giving money to 
a Democrat or a Democrat giving money to a Republican, or who 
knows what, right? It depends, right?
    But, you know, certainly I think most of us hope that we 
have individuals that would carry out our wishes. But most of 
us aren't really thinking about what our wishes actually are. I 
mean, it is not like drawing a will up, right?
    Mr. Jones. Yes, ma'am.
    The Chairman. But yet in today's world--I mean, you talk 
about Open Secrets. You can go on Open Secrets, you see that I 
have over $900,000 in my account right now. Well, that is some 
serious money. And there are some charities that I would want 
to get much of that money and candidates and various things. 
But yet you have to make sure that you have a treasurer, 
because it is up to the treasurer, not your campaign manager or 
your spouse or whoever, to determine where those dollars are 
going. And there are lots of candidates that have millions of 
dollars in their account. Again, we hope the unforeseen never 
happens. But who knows, right?
    Mr. Jones. Absolutely.
    The Chairman. And so I think it is just a very commonsense 
type of thing to make sure that individuals who are donating to 
our respective campaigns, understand what our values are and 
the kind of ideologies that we all have, our partisan 
persuasion, et cetera, that those funds will be distributed in 
a way that is consistent with what they were thinking when they 
were donating to our campaigns as well.
    So I am very much in support of this bill. And I agree with 
Mr. Brady. And I know it has passed. I voted for it in the past 
in other Congresses. But it gets to the Senate, doesn't get 
very far. So hopefully we will be able to see that it actually 
becomes law. It is totally bipartisan, it is just something 
that I think needs to evolve as campaigns have evolved over the 
years and the amounts of money that are left in campaign 
accounts are there as well.
    How do you think the FEC would implement the bill if it 
became law? I know you have had some conversation with them on 
that in the past.
    Mr. Jones. Yes, ma'am. Madam Chairman, they have actually 
testified during one of the hearings on this legislation. And 
they seem--they are in support. If this is the will of the 
Congress, they very much see the value of having this ability 
for the Member to designate that family member, as you made 
reference to, whomever that person might be. And they would be 
able to fully disclose this on the Internet. It would be part 
of the package of the candidate that files the paperwork to be 
a candidate or the incumbent when he or she files their proper 
paperwork with the Federal Election Commission.
    The Chairman. Okay. That was really my only question. And 
as you have already answered, it has to be publicly disclosed. 
Everything that we do, any time you make any changes to any 
kind of campaign, the Campaign Act or campaign finance, et 
cetera, I think the operative phrase always has to be public 
disclosure so that the public is fully aware of whatever is 
happening. And so to have that kind of public disclosure I 
think is absolutely critical and the appropriate thing to do.
    At this time, I have no other questions and would ask the 
gentleman from Pennsylvania to ask questions.
    Mr. Brady. Just briefly, as we sit here today as sitting 
Congresspeople, we can do by law, follow the law, and disburse 
whatever campaign funds we have to, the way we want to, through 
our treasurer. If this bill passes, none of that changes. The 
regulations are exactly the same. And the filing is exactly the 
same as long as that account stays open, and the transparency 
is exactly the same.
    The only thing is that our treasurer now does not have the 
right to do that, our designee, whoever we think knows our 
wishes while we are not here because it would be somebody, 
naturally, that would be closer to us than our treasurer would 
be, and they then have the task or the ability to be able to 
spend that money that we have left over under the same exact 
guidelines that we have sitting right here today. Is that 
correct?
    Mr. Jones. Yes, sir.
    Mr. Brady. Well, then, again I say this is a commonsense 
protection bill that I thank you for bringing forward.
    Mr. Jones. It is that simple as just adding one line and 
allows you to designate who would disburse your money should 
something happen to you. It is that simple.
    Mr. Brady. Thank you. I appreciate it. Thank you.
    Thank you, Madam Chair.
    The Chairman. The Chair recognizes the gentleman from 
Mississippi.
    Mr. Harper. Thank you, Congressman Jones. And I appreciate 
very much you bringing this bill forward. And we fully support 
it and look forward to its progress and ultimate passage.
    And I have no questions, Madam Chair.
    Mr. Jones. Thank you, Mr. Harper. Thank you.
    The Chairman. The Chair recognizes the gentleman from 
California.
    Mr. Vargas. Thank you very much, Madam Chair.
    I also thank you for bringing it forward again, appreciate 
all the work that you have put into it and fully support it. 
Thank you, sir.
    Mr. Jones. Thank you, Mr. Vargas. Thank you.
    The Chairman. Thank you very much for coming.
    Mr. Jones. Thank you.
    The Chairman. We certainly appreciate it and appreciate 
your, as the ranking member has said, the persistence and 
tenacity with this. And we will help move this along. We hope 
this committee will have a markup on the bill in the very, very 
near future and push it along to the floor as well.
    Mr. Jones. Thank you so much. Thank you.
    The Chairman. Thank you.
    Without objection, all members will have 5 legislative days 
to submit to the chair additional written questions for the 
witnesses, which we will forward and ask the witness to respond 
as promptly as he can so that those answers may be part of the 
record.
    And with that, the hearing is adjourned. I thank all the 
members and the witness.
    [Whereupon, at 11:22 a.m., the committee was adjourned.]

                                  [all]

</pre></body></html>
